No. 20-808

IN THE

Supreme Court of the United States
JOHNNY DUANE MILES,
Petitioner,
v.
STATE OF CALIFORNIA,
Respondent.

CERTIFICATE OF WORD COUNT

As required by Supreme Court Rule 33.1(h), I declare that the Reply in Support
of Petition for Writ of Certiorari in the above-mentioned case contains 2,982 words,
excluding parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 2nd day of March, 2021.

CLIFF GARDNER
1448 San Pablo Ave.
Berkeley, CA 94702
(510) 524-1093
casetris@aol.com

